HHS/OIG-Audit-"Review of Ambulance Claims Submitted by Eastern Shore Ambulance Service Incorporated (A-03-01-00001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ambulance Claims Submitted by Eastern Shore Ambulance Service Incorporated," (A-03-01-00001)
August 20, 2001
Complete
Text of Report is available in PDF format (600 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to determine the allowability and reasonableness of ambulance claims submitted for Medicare
reimbursement by Eastern Shore Ambulance Service Incorporated (ESAI). Our review showed that Medicare reimbursed ESAI at
least $110,417 for unallowable ambulance services. Based on the results of a statistical sample, we found that at least
$108,439 of the non-emergency Basic Life Support (BLS) and Advanced Life Support (ALS) transports and related paid claims
were unallowable. Of the 100 sample items reviewed: a) 38 sampled items were not medically necessary, and b) 22 sampled
items were billed as ALS services, a level of service that ESAI was not equipped to provide. We also determined that all
15 emergency ALS and 5 emergency BLS paid claims totaling $1,978 were not allowable. We recommended that the Carrier: (1)
recover overpayments totaling $110,417; (2) provide increased training to ESAI regarding billing for ambulance services;
and (3) consider placing ESAI on prepayment monitoring to ensure claims billed to Medicare are properly documented.